No. 19-963

In the Supreme Court of the United States
HENRY SCHEIN, INC., PETITIONER
v.
ARCHER AND WHITE SALES, INC.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

BRIEF FOR THE RESPONDENT IN OPPOSITION
DANIEL L. GEYSER
GEYSER P.C.
One Energy Square
4925 Greenville Ave., Ste. 200
Dallas, TX 75206

LEWIS T. LECLAIR
Counsel of Record
GARY CRUCIANI
CHELSEA A. PRIEST
MCKOOL SMITH, P.C.
300 Crescent Court, Suite 1500
Dallas, TX 75201
(214) 978-4984
lleclair@mckoolsmith.com

QUESTIONS PRESENTED

Petitioner wishes to present a question about delegation, but the arbitration agreement at issue here does not
mention delegation at all. The only language that petitioner believes even indirectly creates delegation expressly carves out certain disputes, including “actions
seeking injunctive relief,” which this case does. And even
ignoring those initial defects, petitioner is not a signatory
to any agreement with respondent, much less an arbitration agreement; the only signatory to the arbitration
agreement that petitioner (as a nonsignatory) seeks to enforce settled during briefing on petition’s stay application,
and is no longer a party to this case.
The question presented in the main petition therefore
is:
Whether an arbitration agreement that makes no
mention of delegation “clearly and unmistakably” delegates arbitrability with respect to actions that the agreement expressly carves out from both arbitration and any
arguable delegation.
While that question is unworthy of review, the Court
should also decide the following two predicate questions
(as described more fully in respondent’s concurrently
filed conditional cross-petition) if it decides to take up this
case at all:
1. Whether an arbitration agreement that identifies a
set of arbitration rules to apply if there is arbitration
clearly and unmistakably delegates to the arbitrator disputes about whether the parties agreed to arbitrate in the
first place.
2. Whether an arbitrator or a court decides whether a
nonsignatory to an arbitration agreement can enforce the
arbitration agreement through equitable estoppel.

(I)

II
PARTIES TO THE PROCEEDING BELOW AND
RULE 29.6 STATEMENT

Petitioner is Henry Schein, Inc., an appellant below
and a defendant in the district court.
Respondent is Archer and White Sales, Inc., the appellee below and plaintiff in the district court. Archer and
White Sales, Inc., has no parent corporation, and no publicly held company owns 10% or more of its stock.

III
TABLE OF CONTENTS

Page
Introduction ..................................................................................... 1
Statement ......................................................................................... 4
Argument ......................................................................................... 9
A. There is no conflict on any significant
question of federal law .................................................... 10
B. This case is a poor vehicle for deciding the
question presented .......................................................... 18
C. The decision below was correct ..................................... 24
Conclusion ...................................................................................... 31

TABLE OF AUTHORITIES
Cases:
Ally Align Health, Inc. v. Signature
Advantage, LLC, 574 S.W.3d 753 (Ky. 2019) ............12, 13
Am. Bankers Ins. Grp. v. Long,
453 F.3d 623 (4th Cir. 2006) ...............................................22
Arthur Andersen LLP v. Carlisle,
556 U.S. 624 (2009) ..............................................................21
AT&T Techs., Inc. v. Commc’ns Workers,
475 U.S. 643 (1986) ........................................................24, 29
Certain Underwriters at Lloyd’s London v.
Hogan, 556 S.E.2d 662 (N.C. Ct. App. 2001) ..................29
Contec Corp. v. Remote Solution Co.,
398 F.3d 205 (2d Cir. 2005) ................................................22
Dean Witter Reynolds Inc. v. Byrd,
470 U.S. 213 (1985) ..............................................................17
First Options of Chi., Inc. v. Kaplan,
514 U.S. 938 (1995) ..................................................... passim
Hendricks v. UBS Financial Services, Inc.,
546 F. App’x 514 (5th Cir. 2013) ........................................14

IV
Page
Cases—continued:
Henry Schein, Inc. v. Archer & White Sales, Inc.,
139 S. Ct. 524 (2019) .................................................. passim
Howsam v. Dean Witter Reynolds, Inc.,
537 U.S. 79 (2002) ..........................................................24, 29
James & Jackson, LLC v. Willie Gary,
906 A.2d 76 (Del. 2006) .......................................................14
Johnston Cty v. R.N. Rouse & Co., 414 S.E.2d 30
(N.C. 1992) ...........................................................................29
Kai Peng v. Uber Techs., Inc., 237 F. Supp. 3d 36
(S.D.N.Y. 2017) ....................................................................14
Mastrobuono v. Shearson Lehman Hutton,
514 U.S. 52 (1995) ..........................................................26, 28
Mohamed v. Uber Technologies, Inc., 848 F.3d 1201
(9th Cir. 2016) ................................................................11, 12
NASDAQ OMX Group, Inc. v. UBS Securities, LLC,
770 F.3d 1010 (2d Cir. 2014) ........................................13, 14
Oracle America, Inc. v. Myriad Group A.G.,
724 F.3d 1069 (9th Cir. 2013) .................................... passim
Redeemer Comm. of the Highland Crusader Fund v.
Highland Cap. Mgmt., L.P.,
No. 12533-VCG, 2017 Del. Ch. LEXIS 30
(Feb. 23, 2017) .....................................................................14
Rent-A-Center, West, Inc. v. Jackson,
561 U.S. 63 (2010) ..........................................................25, 27
Root v. Allstate Ins. Co., 158 S.E.2d 829
(N.C. 1968) ...........................................................................29
Stolt-Nielsen S.A. v. AnimalFeeds Int’l Corp.,
559 U.S. 662 (2010) ..............................................................26
Wood-Hopkins Contracting Co. v. N.C. State
Ports Auth., 202 S.E.2d 473 (N.C. 1974)..........................30

V
Page
Miscellaneous:
ALI Restatement of the U.S. Law of International
Commercial and Investor-State Arbitration,
Restatement (Tentative Draft No. 4, 2015) ................19, 20
Christopher R. Drahozal &
Erin O’Hara O’Connor, Unbundling Procedure: CarveOuts from Arbitration Clauses, 66 Fla. L.
Rev. 1945 (2014) ....................................................................30

In the Supreme Court of the United States
No. 19-963
HENRY SCHEIN, INC., PETITIONER
v.
ARCHER AND WHITE SALES, INC.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

BRIEF FOR THE RESPONDENT IN OPPOSITION

INTRODUCTION

This case is an exceedingly poor vehicle for review,
made more so by respondent’s recent settlement with the
only other signatory to the arbitration agreement at issue.
As presently postured, petitioner seeks to enforce an arbitration agreement that it never signed, in a forum
(North Carolina) having no relevant connection to the relationship of these parties, and based upon a legal theory
(equitable estoppel) that neither the district court nor the
court of appeals has ever addressed. The procedural setting of this case is most unusual. Indeed, while petitioner
purports to rely upon an arbitration agreement between
respondent and a dental manufacturer (Pelton), it ignores
that respondent has express non-arbitration agreements
with other manufacturers, and no written agreement at
all with others still. Petitioner previously focused on the
(1)

2
Pelton agreement because Pelton was a party, but that is
no longer true; there now is especially no reason that the
Pelton agreement should override respondent’s agreements not to arbitrate with other manufacturers.
The Court might choose to overlook these defects if
there were a clear split of authority warranting review,
but no such split exists. Petitioner’s attempt to manufacture a split relies on cases that reached different results
because they construed different contractual language.
No two courts have reached different outcomes based on
a comparable carve-out, but each court agrees on the controlling principle: the question requires a clear and unmistakable showing based on the case-specific language and
syntax of the arbitration clause at issue.
Ironically, the parties (and the courts in the alleged
split) now agree on the answer to petitioner’s question
presented. After submitting its stay application, petitioner apparently jettisoned the categorical theory it has
advanced since 2012 (and on which it bases its asserted
split): parties must delegate either all arbitrability disputes or no arbitrability disputes. As respondent pointed
out in its stay response, that position is incompatible with
longstanding jurisprudence that arbitration is a matter of
contract, and parties are free to arbitrate all, none, or only
some disputes.
Instead, petitioner now admits that “[t]o be sure, an
arbitration agreement could, in theory, clearly and unmistakably delegate the question of arbitrability to an arbitrator for certain claims while exempting”—carving out—
“others from the delegation.” Pet. 21. In other words, everyone agrees that courts must take carve-outs into account when deciding whether parties clearly and unmistakably delegated this dispute to arbitration. There is no
“pure question of law” here. The answer depends on

3
applying traditional rules of contract interpretation to the
specific language at hand.
In place of those traditional rules and the longstanding
presumption that courts decide arbitrability disputes,
however, petitioner proposed in its stay reply a “more
modest” presumption-shifting scheme that it never presented below and that no court anywhere has ever addressed, much less adopted. This Court should not be the
first to evaluate petitioner’s new proposal.
Moreover, this Court’s decision on the question presented is unlikely to have any practical effect. There are a
number of reasons that this antitrust dispute between two
competitors without any contractual relationship should
not be resolved in arbitration in North Carolina, including
that the agreement says nothing about delegation, this action falls within a carve-out to both delegation and arbitration, and the party demanding arbitration is not even a
party to the agreement. Even if petitioner prevails here,
it will simply lose again on remand. If the question presented warrants review at all, this Court can always take
it up in a future case where it is outcome-determinative.
At bottom, petitioner must string together one untenable presumption and inference upon another, and even if
petitioner wins across the board, it would yield the bizarre
result that respondent is forced to arbitrate with a party
with whom it has no agreement at all; in a forum bearing
no relevant connection to the parties’ dealings; respecting
claims relating to manufacturers with whom respondent
either had no arbitration agreement at all or expressly
agreed to litigate in court; pursuant to an equitable estoppel theory that the courts below have not addressed; and
all this because respondent and another party (but not
one still a party to the case) agreed to arbitrate, where
appropriate, under the AAA Rules—without explicitly
saying a word about delegation.

4
This case has dragged on for nearly eight years, with
the parties twice on the courthouse steps, ready to try
their case and resolve their dispute. But petitioner persists in trying to invoke an arbitration clause to which it is
not a party and under an ever-changing legal theory that
sub silentio asks this Court to reverse its longstanding
presumption in favor of the court deciding the gateway issue of arbitrability. This Court should not reward petitioner’s attempt to delay any longer. Because there is no
need to decide a marginal question in a vehicle plagued
with serious defects, the petition should be denied.
STATEMENT

1. Respondent is a small, family-owned distributor
that sells dental products to dentists. It obtains access to
those products through agreements with dental-product
manufacturers. Some agreements are written and contain
arbitration clauses, such as respondent’s agreement with
Pelton (previously a defendant in the district court). Some
agreements are written and affirmatively require that any
dispute be resolved in court, not arbitration, such as respondent’s agreement with Kavo (also previously a defendant). D. Ct. Dkt. 24-4, at 18 (requiring disputes be
brought in court in County of Lake, Illinois). And some
agreements are oral and do not specify how the parties
must resolve any dispute, such as respondent’s agreement
with Instrumentarium (also previously a defendant).
Petitioner is another dental-products distributor and
one of respondent’s competitors. Petitioner and respondent do not have any contractual relationship. No arbitration agreement exists between them.
2. In 2012, respondent sued petitioner and several
dental-equipment manufacturers, including Pelton. Pet.
App. 3a. Respondent alleged that petitioner conspired
with other large dental distributors to maintain

5
supracompetitive margins by threatening to stop buying
from manufacturers (such as Pelton) who sold to low-margin dental distributors such as respondent, thereby bringing manufacturers into the conspiracy. See ibid. These actions resulted in the conspirators boycotting low-margin
distributors like respondent. Ibid. To redress these antitrust violations, respondent’s pending suit demands damages and “injunctive relief,” because “[t]he violations
* * * are continuing and will continue unless injunctive relief is granted.” C.A. App. 35.
3. a. After respondent filed its original complaint, defendant Pelton moved to compel arbitration based on its
distribution agreement with respondent:
Any dispute arising under or related to this Agreement (except for actions seeking injunctive relief and
disputes relating to trademarks, trade secrets or other
intellectual property of Pelton & Crane) shall be resolved by binding arbitration in accordance with the
arbitration rules of the American Arbitration Association.
Pet. App. 3a (emphasis added). Even though the other defendants were not parties to the arbitration agreement
(and some even had agreements requiring that disputes
be resolved in court), they joined Pelton’s motion.
Petitioner filed its own motion to compel arbitration,
arguing that under equitable estoppel, respondent had to
arbitrate with petitioner, even though the parties lacked
any contractual relationship whatsoever—much less an
arbitration agreement.
b. Pelton1 recently settled, eliminating from the case
the only defendant with an arbitration agreement. See D.
Ct. Dkt. 497.
Pelton was a part of a group of manufacturers owned by Danaher
Corporation, all of whom settled.
1

6
4. The magistrate judge ordered arbitration, but the
district court vacated the order and denied the motions to
compel arbitration. The district court ruled that the parties had not clearly and unmistakably agreed to delegate
arbitrability. It observed that “[t]here is no express delegation clause in the [A]greement.” Pet. App. 31a. And in
light of the carve-out for actions seeking injunctive relief,
the court found no reason to believe that the parties’ adoption of the AAA Rules expressed an intent to delegate the
arbitrability of those actions. Id. at 32a. “[T]he present action falls squarely within the terms of an express carveout,” the court explained, and “it would be senseless to
have the AAA rules apply to proceedings that are not subject to arbitration.” Ibid. The court also held that even if
the agreement delegated arbitrability disputes, the defendants’ arbitrability argument was “wholly groundless.” Id. at 35a.
5. On appeal, respondent urged affirmance both because “[t]he parties did not delegate the question of arbitrability to the arbitrator” and because, even if they had,
the defendants’ “arbitrability argument is ‘wholly groundless.’” C.A. Br. 17, 26.
The Fifth Circuit affirmed. With respect to delegation,
the court said: “It is not the case that any mention in the
parties’ contract of the AAA Rules trumps all other contract language.” 878 F.3d 488, 494 (5th Cir. 2017). Rather,
“the interaction between the AAA Rules and the carveout is at best ambiguous.” Id. at 494-495. It therefore concluded that “[t]here is a strong argument that the Dealer
Agreement’s invocation of the AAA rules does not apply
to cases that fall within the carve-out” for “actions seeking
injunctive relief.” Id. at 494. The court did not decide the
delegation issue, however, because it affirmed on the alternative ground that the defendants’ arbitrability argument was wholly groundless. Id. at 495.

7
6. This Court granted certiorari to decide the viability
of the “wholly groundless” exception, held that the exception was inconsistent with the Federal Arbitration Act,
and vacated the Fifth Circuit’s decision. Henry Schein,
Inc. v. Archer & White Sales, Inc., 139 S. Ct. 524 (2019).
But it “express[ed] no view about whether the contract at
issue in this case in fact delegated the arbitrability question to an arbitrator.” Id. at 531. Instead, this Court remanded with instructions for the Fifth Circuit to “address
that issue in the first instance,” with a reminder that
“courts ‘should not assume that the parties agreed to arbitrate arbitrability unless there is clear and unmistakable evidence that they did so.’” Ibid. (quoting First Options of Chi., Inc. v. Kaplan, 514 U.S. 938, 944 (1995)).
7. In August 2019, after supplemental briefing and oral
argument, the Fifth Circuit issued its decision on remand.
The court recognized that arbitration is a matter of contract formation and interpretation. Pet. App. 5a-6a. It
therefore reviewed the specific language of the arbitration clause at issue and concluded that “the placement of
the carve-out here is dispositive.” Id. at 11a. “We cannot
rewrite the words of the contract,” the court explained,
and “[t]he most natural reading of the arbitration clause
at issue here states that any dispute, except actions seeking injunctive relief, shall be resolved in arbitration in accordance with the AAA rules.” Ibid. Accordingly, “[t]he
plain language incorporates the AAA rules—and therefore delegates arbitrability—for all disputes except those
under the carve-out.” Ibid. “Given that carve-out,” the
court concluded, “we cannot say that the Dealer Agreement evinces a ‘clear and unmistakable’ intent to delegate
arbitrability.” Ibid.
The Fifth Circuit noted that it was “mindful of th[is]
Court’s reminder that ‘[w]hen the parties’ contract delegates the arbitrability question to an arbitrator, the

8
courts must respect the parties’ decision as embodied in
the contract.’” Pet. App. 11a (quoting Henry Schein, 139
S. Ct. at 531). But it also needed to “heed [this Court’s]
warning that ‘courts “should not assume that the parties
agreed to arbitrate arbitrability unless there is clear and
unmistakable evidence that they did so.”’” Id. at 11a-12a
(quoting Henry Schein, 139 S. Ct. at 531). “The parties
could have unambiguously delegated this question,” the
Fifth Circuit explained, “but they did not, and we are not
empowered to re-write their agreement.” Id. at 12a.
The Fifth Circuit then determined that this action is
not arbitrable because it falls outside the scope of the arbitration clause. Pet. App. 14a-15a. Accordingly, it affirmed the district court’s decision.
8. The defendants sought rehearing en banc in August
2019, which the Fifth Circuit denied on December 6, 2019;
no judge requested a vote on the petition. Pet. App. 42a.
On January 8, 2020, petitioner filed a stay application
with this Court to avoid the upcoming trial. On January
17, 2020, respondent and Pelton (and related manufacturers owned by Danaher Corporation) announced they had
settled all pending claims and the district court stayed all
deadlines applicable to them. See D. Ct. Dkt. 497, 501.2 On
January 24, 2020, this Court granted the stay application
pending the filing and disposition of the pending petition.

Also on January 17, 2020, respondent and Patterson Companies,
Inc. (a defendant and respondent’s competitor) announced they had
settled all pending claims. See D. Ct. Dkt. 498, 502. There are only
two remaining defendants, petitioner and Benco Dental Supply Co.;
the latter, another of respondent’s competitors, did not seek a stay
and did not join in the petition. At the time the Court issued its stay,
respondent was engaged in active settlement discussions with both
petitioner and Benco.
2

9
ARGUMENT

Petitioner poses a question that has not divided the
courts or even the parties. Everyone agrees that a carveout can exempt certain disputes from a delegation clause
in appropriate circumstances. Courts have reached different conclusions in different cases because they were evaluating different contractual language. As petitioner now
acknowledges, parties may delegate some, but not all, arbitrability disputes, so courts must give meaning to carveout language by interpreting the text. Whether the court
below correctly read this “unique” clause is a case-specific, fact-bound question of no general importance.
Nor is this case a suitable vehicle. This arbitration
agreement says nothing about delegation; petitioner is
not even a signatory; the only signatory has since settled,
dropping entirely out of the case; and the remaining two
defendants (respondents’ competitors) have no agreement with respondent at all, much less an arbitration
agreement. Petitioner is building a house of cards based
on unresolved predicate questions, and doing so for an obvious reason: to delay the trial that will ultimately decide
this case. There is no reason for the Court to resolve petitioner’s weak question presented at all, much less without
first resolving the predicate questions that undergird petitioner’s arbitration quest.
Compounding these defects, petitioner has repeatedly
changed its own position. When confronted in the stay opposition with the obvious shortcoming in petitioner’s “allor-nothing” delegation theory, petitioner has now retreated to a novel legal theory that was not presented to
the court below, has not been adopted by any lower court,
and would impliedly overrule this Court’s own long-standing decisions.
Finally, the decision below was correct. In the very
sentence petitioner claims (silently) constitutes a

10
delegation, the signatories carved out “actions seeking injunctive relief.” This is indisputably an action seeking injunctive relief. Arbitration is a matter of contract, and giving effect to that carve-out is the only way to respect the
signatories’ intent as reflected in the agreement’s unambiguous text. The FAA places arbitration clauses on equal
footing with other contracts; it does not permit arbitration
where the parties excepted a dispute from arbitration.
In short, petitioner failed to identify any conflict, let
alone a conflict on an issue of substantial importance, and
this case is an unsuitable vehicle for further review. The
petition should be denied.
A. There Is No Conflict On Any Significant Question
Of Federal Law
Petitioner maintains that the courts are divided on the
question presented, but petitioner is wrong. Each case
stands for the unremarkable proposition that courts must
examine the particular contractual language at issue and
determine whether that language “clearly and unmistakably” delegates arbitrability questions to the arbitrator.
That different cases reached different outcomes is not evidence of a split; it is evidence that different parties
agreed to different words in different contracts, leading
to different meanings.
1. In Oracle America, Inc. v. Myriad Group A.G., 724
F.3d 1069 (9th Cir. 2013), the Ninth Circuit found that the
parties had delegated arbitrability of the dispute at issue
despite the existence of a carve-out. But rather than drawing the bright-line rule that petitioner ascribes to it—that
interpreting the scope of a carve-out is per se impermissible—the Ninth Circuit analyzed the specific language of
the clause at issue and limited its holding to that case-specific language.
The parties had agreed to arbitrate “any claim arising
out of the Source License” while also carving out disputes

11
relating to “Intellectual Property Rights or with respect
to [Myriad’s] compliance with the TCK license.” 724 F.3d
at 1071. But the arbitration agreement and the carve-out
were circular. As the Ninth Circuit explained, “[e]nforcement of Myriad’s intellectual property rights is restricted
by the Source License. And the TCK License is part of the
Source License.” Id. at 1076. So “by definition, the claims
excepted from arbitration by the carve-out clause are
claims ‘arising out of or relating to’ the Source License,”
i.e., arbitrable claims. Ibid. In those circumstances, the
court explained, “Oracle’s argument conflate[d] the scope
of the arbitration clause, i.e., which claims fall within the
carve-out provision, with the question of who decides arbitrability.” Ibid.3
Petitioner takes Oracle’s language far beyond its natural meaning to suggest the Ninth Circuit established a
bright-line rule that courts may never interpret the scope
of a carve-out. But read in context, Oracle said only that
determining arbitrability in the context of that circular
contractual language conflated scope and delegation. See
724 F.3d at 1076 (“Here, the excepted claims are by definition related to arbitrable claims because they all relate
to the Source License.” (emphasis added)).
Petitioner ignores subsequent decisions disproving
the claim that Oracle endorsed a categorical rule. For example, in Mohamed v. Uber Technologies, Inc., 848 F.3d
1201 (9th Cir. 2016), the court held that the delegation
provisions at issue “clearly and unmistakably delegated
the question of arbitrability to the arbitrator for all claims
See also Pet. App. 10a n.30 (“The [Oracle] court noted that the
issue with Oracle’s carve-out argument was that the two categories of
exempted claims by definition were claims arising out of or relating
to the Source License, which were explicitly subject to arbitration. No
such circularity exists in the contract at issue here.” (citation omitted)).
3

12
except challenges to the class, collective, and representative actions waivers,” i.e., the carve-out in that case. Id. at
1209. If petitioner were correct that Oracle stands for the
proposition that delegation is all-or-nothing—that carveouts have no bearing on delegation—then the court in Mohamed (decided three years after Oracle) would have ordered arbitration for the arbitrator to decide the import
of the carve-out language. Instead, the court decided the
arbitrability question itself.4
Petitioner also claims the decision below conflicts with
Ally Align Health, Inc. v. Signature Advantage, LLC, 574
S.W.3d 753 (Ky. 2019), which relied heavily on Oracle. But
in that case, the arbitration and delegation clause and the
carve-out were located in different sections of the agreement. Id. at 756. As the Fifth Circuit explained, “the
placement of the carve-out” is “dispositive” in determining the parties’ intent. Pet. App. 11a. Where the delegation clause and the carve-out are in separate sections of
the agreement—as in Ally Align—there is no reason to
believe the carve-out applies to delegation. But where, as
here, the delegation provision and the carve-out are in the
same sentence, “[t]he most natural reading” of that language is that the carve-out applies to delegation. Ibid.5
Ally Align merely confirms that the determination is a
Petitioner cannot explain away Mohamed on the ground that “the
carve-out operated directly on the delegation, as opposed to broader
agreement to arbitrate certain claims.” Pet. Stay Reply 11. That is
exactly the point the Fifth Circuit made in declaring the placement of
the carve-out “dispositive.” Pet. App. 11a. In this case, the parenthetical carve-out appears in the very sentence that petitioner claims creates the delegation, meaning that this carve-out operates on delegation, just as in Mohamed.
4

See Han v. Synergy Homecare Franchising, LLC, 2017 U.S. Dist.
LEXIS 15021, at *15-*16 (N.D. Cal. Feb. 2, 2017) (distinguishing Oracle because the carve-out and delegation appeared in separate sentences).
5

13
matter of contract interpretation, not wooden, bright-line
rules.6
2. Oracle and Ally Align are also consistent with case
law in the Second Circuit and the State of Delaware; these
courts confirm that the question of who decides arbitrability consists of nothing more than the court applying ordinary rules of contract interpretation to all the terms of
the arbitration agreement, including any carve-out language.
In NASDAQ OMX Group, Inc. v. UBS Securities,
LLC, 770 F.3d 1010 (2d Cir. 2014), the Second Circuit concluded that the contract at issue did not reflect a clear and
unmistakable intent to delegate arbitrability. “[W]here a
broad arbitration clause is subject to a qualifying provision that at least arguably covers the present dispute,” the
court explained, “we have identified ambiguity as to the
parties’ intent to have questions of arbitrability—which
would include whether a dispute falls within or outside the
scope of the qualifier—decided by an arbitrator.” Id. at
1031. The agreement did “not clearly and unmistakably
direct that questions of arbitrability be decided by AAA
rules,” the court said; “rather, it provides for AAA rules
to apply to such arbitrations as may arise under the
Agreement.” Id. at 1032. Because the dispute at issue fell
within the scope of the carve-out, there was no arbitration
arising under the agreement to which the AAA rules
would apply, and thus no delegation. See ibid. Again, the
Respondent does not intend to suggest that whether the carveout is located in the same sentence as the delegation language is dispositive; rather, the point is that courts, including the courts below,
have considered the placement of the carve-out language in applying
the traditional tools of contract construction to ascertain the parties’
intent. The location of the delegation clause, like any other case-specific feature of any contract, is simply one factor a court may take into
account in construing a contract.
6

14
court’s interpretation turned on the specific language of
the contract at issue.7
The Delaware Supreme Court in James & Jackson,
LLC v. Willie Gary, 906 A.2d 76, 81 (Del. 2006), similarly
examined the language of the specific agreement at issue
and determined there was no clear and unmistakable evidence of delegation.8 Subsequent cases in Delaware have
emphasized “[t]he contextual nature of the inquiry.” Redeemer Comm. of the Highland Crusader Fund v. Highland Cap. Mgmt., L.P., No. 12533-VCG, 2017 Del. Ch.
LEXIS 30, at *17-*18 (Feb. 23, 2017). These cases all turn
on the same unremarkable principle: Arbitration is a matter of contract. First Options, 514 U.S. at 943.
3. Ironically, some of the very cases that petitioner relied on below also prove that no court has adopted the “allor-nothing” delegation rule that (according to petitioner)
gave rise to a split. For example, petitioner argued below
that Hendricks v. UBS Financial Services, Inc., 546 F.
App’x 514 (5th Cir. 2013) (per curiam), in which the court
had found clear and unmistakable delegation despite the
presence of a carve-out, demonstrated that the Fifth
As with Oracle, subsequent decisions of courts in the Second Circuit show that NASDAQ does not stand for any bright-line rule but is
instead a context and language-based inquiry. See, e.g., Kai Peng v.
Uber Techs., Inc., 237 F. Supp. 3d 36, 53-54 & n.15 (S.D.N.Y. 2017)
(distinguishing NASDAQ and finding that the particular carve-out in
that case did “not negate a finding of clear and unmistakable delegation to the arbitrator”).
8
To be sure, Oracle disagreed with James & Jackson regarding
the breadth of the carve-out in that case. Oracle, 724 F.3d at 1076
(disagreeing with the Delaware court, writing, “[i]n fact, the parties’
agreement in James & Jackson did generally refer all controversies
to arbitration”). But two courts’ disagreement about the breadth of
the carve-out language in a particular agreement is not the type of
question that merits this Court’s attention, particularly when the disputed language is distinguishable from the language in this case.
7

15
Circuit’s position was that “carve-outs from arbitration
clauses do not narrow otherwise-valid delegation clauses.”
Pet. Supp. C.A. Br. 14. That was proven false by the panel
in this very case. Instead, Hendricks provides more evidence that the Fifth Circuit, like every other court, bases
its decision on the specific language at issue, nothing
more.
In short, there is no genuine conflict. No courts have
come to different conclusions about whether the same language delegates arbitrability. Rather, courts have come
to different conclusions on differing language. That is not
creating or deepening a split; that is applying this Court’s
instruction to examine the parties’ particular agreement
to determine whether clear and unmistakable evidence of
delegation exists.
4. Petitioner has inadvertently demonstrated that
there is no disagreement over the question presented:
“Whether a provision in an arbitration agreement that exempts certain claims from arbitration negates an otherwise clear and unmistakable delegation of questions of arbitrability to an arbitrator.” Pet. i. According to each of
the courts discussed above, the answer is “sometimes”; it
depends on the contractual language at issue.
Remarkably, even petitioner and respondent now
agree on the answer to the question presented. Since
2012, petitioner had advocated for a bright-line rule in
which the mere incorporation of the AAA rules coupled
with an arbitration carve-out always required the arbitrator to decide arbitrability. “Whether or not an arbitration
clause containing a valid delegation provision ‘carves out’
certain claims, the delegation provision still mandates
that the arbitrator—not the court—decide the arbitrability of the allegedly carved-out claims.” Pet. C.A. Br. 22;
see also Pet. Supp. C.A. Br. 14 (arguing that “carve-outs
from arbitration clauses do not narrow otherwise-valid

16
delegation clauses,” with no caveats). That is the same argument petitioner made in its stay application. See Stay
App. 2 (“[B]ecause the question of scope [of a carve-out
provision] is itself a question of arbitrability, the arbitrator must decide that question if there is a clear and unmistakable delegation.”).
After respondent pointed out that petitioner’s “all-ornothing” rule conflicts with the long-standing principle
that parties can structure their arbitration agreements as
they wish, however, see Stay Opp. 24-25, petitioner
shifted to a “more modest” position for the first time in
the case. Stay Reply 9. It admitted that a carve-out can
defeat a clear and unmistakable delegation in some circumstances, but proposed a novel presumption-shifting
framework. See id. at 11.
Petitioner’s position continued to evolve in its petition.
Its question presented and the bulk of its presentation
again assume that carve-outs have no bearing on delegation. But late in its petition (at 21), petitioner abruptly pivots and falls back on the “more modest” presumptionshifting rule announced in the stay reply: “[t]o be sure, an
arbitration agreement could, in theory, clearly and unmistakably delegate the question of arbitrability to an arbitrator for certain claims while exempting others from
the delegation.” That single sentence undermines the entire premise of petitioner’s case. It eliminates the viability
of the alleged split and concedes away petitioner’s proposed bright-line rule of all-or-nothing delegation (which
it had been promoting for the previous 21 pages). Petitioner admits the obvious: a court must always consider
the full language of the arbitration agreement, including
any carve-out, in making a delegation determination. The
only dispute is how that test applies to the particular,
“unique” contractual language at issue in this case.

17
In short, the import of petitioner’s new admission is
profound: there is no bright-line rule, which means there
is no split of authority, which means the Fifth Circuit did
not err in taking the carve-out language into consideration when making its delegation decision. This Court
should not be the very first to consider if petitioner’s novel
presumption-shifting framework has any merit.
5. The current petition stands in stark contrast to the
last time this case was before the Court. In its last trip,
the question presented was a pure question of law:
whether the “wholly groundless” exception is consistent
with the Federal Arbitration Act. Henry Schein, 139 S.
Ct. at 528-529. Unlike the “wholly groundless” issue, the
present issue does not present any important, recurring
questions about arbitration writ large. Whether the particular language in this “unique” contract clearly and unmistakably delegates arbitrability is of little importance
outside of this specific case; it can lead to no broader,
meaningful standard, and parties are always free to contract around it. Petitioner makes much of the importance
of arbitration generally and this Court’s previous grants
of certiorari in arbitration cases. But previous cases presented legal questions with widespread effect, not questions turning on the particular syntax of a single arbitration agreement.
Moreover, petitioner’s concerns about efficiency and
“ignoring” arbitration agreements ring hollow. Many of
those arguments assume the parties agreed to arbitrate,
which is hotly disputed here. And efficiency concerns cannot overcome the parties’ intent. Dean Witter Reynolds
Inc. v. Byrd, 470 U.S. 213, 221 (1985) (holding that courts
must enforce arbitration agreements as written, even if
the result is inefficient). While petitioner protests that “a
court could preclude arbitration whenever it concludes,
based on its own parsing of the arbitration agreement,

18
that the parties’ dispute falls outside the scope of the delegation provision,” Pet. 24, that is exactly what courts are
required to do: determine what the parties intended. See
First Options, 514 U.S. at 943 (“[T]he question ‘who has
the primary power to decide arbitrability’ turns upon
what the parties agreed about that matter.”). If the dispute falls outside the scope of the delegation provision—
i.e., the parties did not agree to delegate this kind of dispute—the court should preclude arbitration.
B. This Case Is A Poor Vehicle For Deciding The
Question Presented
This case is an exceedingly poor vehicle for deciding
the question presented. To reach the result that it seeks—
arbitration—petitioner must stack assumption upon assumption and strained legal doctrine upon strained legal
doctrine. Petitioner is not a party to the arbitration agreement at issue. Nor does it have any connection to that
agreement. As such, petitioner relies solely on an equitable estoppel theory that neither the district court nor the
Fifth Circuit have addressed. And the arbitration agreement itself says nothing about delegation; it merely sets
out the rules for arbitrable disputes. What is more, petitioner’s position requires the Court to ignore other relevant agreements that affirmatively do not permit arbitration. The anomalous result under petitioner’s theory is an
arbitration between parties who never agreed to arbitrate, in a State (North Carolina) with no relevant connection to the dispute, and involving claims in which respondent had agreements not to arbitrate. This case does not
merit review.
1. First, petitioner’s question presented requires the
Court to assume that the arbitration clause delegates arbitrability in the first place. See Pet. i (assuming “an otherwise clear and unmistakable delegation of questions of
arbitrability”). But the arbitration clause at issue says

19
nothing about delegation. Instead, petitioner hangs its
hat on a provision stating that if the parties do indeed arbitrate a dispute, the arbitration generally will be governed by AAA Rules. Because a single provision of those
Rules (out of dozens) happens to give arbitrators authority to decide their own jurisdiction, petitioner says respondent and Pelton impliedly delegated the gateway issue “clearly and unmistakably” to the arbitrator.
While this Court has never addressed the validity of
implied delegation, it is perplexing to think that merely
incorporating the AAA Rules is itself sufficient to show a
clear and unmistakable delegation. Many courts—including the court below—recognize the concept, but their reasoning is sparse, other courts disagree, and the authoritative ALI Restatement of the U.S. Law of International
Commercial and Investor-State Arbitration examined
those decisions and declared them misguided. Restatement § 2-8 reporter’s note b(iii) (Tentative Draft No. 4,
2015).9
To begin, it makes little sense to think that parties who
actually contemplated the delegation issue would decide
to resolve it in a manner as oblique as this. The AAA Rules
span dozens of pages and include a multitude of provisions; those Rules play a role in arbitrations generally,
and parties thus have every reason for invoking the AAA
Rules even if they did not give one whit of thought to delegating arbitrability—indeed, even if they presumed, as
most parties do, that courts would retain the gatekeeping
role to decide whether a dispute is arbitrable in the first
place. See First Options, 514 U.S. at 945 (confirming that
presumption). This is exactly the kind of “arcane” issue
that “[a] party might not focus upon,” and therefore
“might too often force unwilling parties to arbitrate a
9

Approved, http://2015annualmeeting.org/actions-taken.

20
matter they reasonably would have thought a judge, not
an arbitrator, would decide.” Ibid. A generic, indiscriminate reference to all the AAA Rules is a far cry from specifically invoking the single provision that happens to say
anything about arbitrating arbitrability.
But even if the parties had randomly plucked out that
single AAA provision in advance, nothing on its face suggests that parties are giving away their right for a court
to make the threshold determination. The relevant AAA
rule, at most, gives the arbitrator the competence to make
a decision; that means the parties are not forced to return
to court in the event that a dispute arises over arbitrability. But nothing in any AAA rule gives the arbitrator the
exclusive right to determine his or her own jurisdiction.
See Restatement § 2-8 reporter’s note b(iii) (Tentative
Draft No. 4, 2015). Saying that either tribunal may determine arbitrability necessarily does not say that courts
may not, and it assuredly does not convey a “clear and unmistakable” message to that effect. Incorporating the
ground rules for arbitration, in short, does not suggest
that arbitrators alone may decide arbitrability.
Finally, most sets of arbitration rules (such as the
AAA Rules) give arbitrators authority to decide their own
jurisdiction, and most arbitration agreements choose a set
of arbitration rules to govern their disputes. It may be one
thing if those rules were useful only regarding arbitrability, but parties have every reason to select those rules for
a different reason—providing the ground rules, in advance, for disputes that actually belong in arbitration.
Holding that mere mention of a set of arbitration rules in
an arbitration agreement demonstrates clear and unmistakable evidence of delegation would flip this Court’s
longstanding presumption against delegation on its head.
At bottom, implied delegation contravenes this
Court’s repeated holdings that courts alone are presumed

21
to decide arbitrability. See generally Prof. Berman Amicus Br., Henry Schein, Inc. v. Archer & White Sales, Inc.,
No. 17-1272 (filed Sept. 25, 2018). The fact that petitioner’s entire argument hinges on an invalid premise is
reason alone to deny review. But if the Court wishes to
consider the case at all, it should also grant review over
the implied-delegation question.
2. Even if petitioner is somehow correct that contracting parties may delegate arbitrability merely by choosing
the rules for any arbitration, petitioner still must deal
with this agreement’s express carve-out. And it makes little sense to say that respondent intended the AAA Rules
to apply to a dispute that is expressly excluded from arbitration (and with a non-signatory, to boot).
3. Assuming there was delegation of this dispute at all,
petitioner next must face the fact that it is not a signatory
to the arbitration agreement at issue. Indeed, petitioner
is not even related to a signatory (e.g., an agent or any
privy), the normal circumstances under which a non-signatory invokes someone else’s arbitration agreement.
And, of course, the only signatory (besides respondent) to
the arbitration agreement has now settled and is no
longer even a participant in this lawsuit.
In theory, a non-signatory may perhaps be able to enforce an arbitration agreement against a signatory if state
law allows it. See Arthur Andersen LLP v. Carlisle, 556
U.S. 624 (2009). But that is an open question in this case.
Under North Carolina law,10 “equitable estoppel applies
when the signatory to a written agreement containing an
arbitration clause must rely on the terms of the agreement in asserting its claims against the nonsignatory.”
Am. Bankers Ins. Grp. v. Long, 453 F.3d 623, 627 (4th Cir.
The agreement containing the arbitration clause also contains a
North Carolina choice-of-law clause.
10

22
2006) (alterations and citation omitted). It is hardly a foregone conclusion that this standard has been met.
Moreover, not all nonsignatories are created equal.
Even if a nonsignatory is allowed to enforce an arbitration
agreement, it usually involves some sort of privity with a
signatory. See, e.g., Contec Corp. v. Remote Solution Co.,
398 F.3d 205, 208-209 (2d Cir. 2005) (signatory Contec
L.P. reorganized to be Contec Corp., which was the nonsignatory invoking arbitration). Here, however, petitioner
is a complete stranger to the arbitration agreement. Petitioner cannot and does not claim that it or respondent ever
remotely contemplated, let alone intended, that any dispute between these two competitors would be resolved in
arbitration.
Allowing petitioner to invoke the agreement would be
even more unusual in this scenario because the agreement
requires arbitration to take place in North Carolina (Pelton’s headquarters). The dispute between petitioner and
respondent has no relevant connection to North Carolina.
Petitioner is headquartered in New York and incorporated in Delaware. Respondent is based in Texas. Pelton
is no longer a party to this litigation and will not be a party
to any ensuing arbitration. Yet petitioner wishes the court
to order the parties to arbitration in a distant State based
on an absent party’s principal place of business. There is
nothing “equitable” about applying equitable estoppel in
that way.
4. And that still is not all. Petitioner’s attempt to take
advantage of Pelton’s arbitration agreement is even more
strained because it ignores that respondent’s agreements
with seven other conspiring manufacturers either did not
require arbitration at all or even precluded arbitration. At
the time the stay was entered, respondent was asserting
claims relating to the terminations or refusals to deal of
eight different manufacturers, and Pelton was the only

23
manufacturer who had an arbitration agreement with respondent. See, e.g., D. Ct. Dkt. 513 (statement from pretrial hearing on Jan. 24, 2020). The other seven manufacturers either had agreements with respondent requiring
any disputes to be resolved in court or had no written
agreement at all with respondent.11 Neither law nor logic
supports petitioner’s contention that equitable estoppel
would elevate the Pelton arbitration agreement above the
other seven or trump respondent’s right to litigate in
court against manufacturers whose contracts mandate judicial dispute-resolution. Whatever importance Pelton’s
agreement may have had when Pelton was a party, it
stands on equal footing with the other agreements now.
It is thus one thing for petitioner to argue the benefit
of Pelton’s arbitration agreement under equitable-estoppel principles, but it is quite another to make the bootstrap argument that equitable estoppel somehow applies
to the claims related to every other manufacturer when
there is no underlying arbitration agreement or even express non-arbitration agreements. Because no arbitration
agreement exists at all with respect to those manufacturers, claims arising from their boycott of respondent necessarily would not be arbitrable by them or, by extension,
petitioner. Respondent is unaware of any court anywhere
that has ever ordered a party to arbitrate claims when
that party has an express agreement to litigate its claims
in court. This might be the first.
Respondent’s distribution agreement with Kavo required that
any action be brought “in a court of competent jurisdiction in the
County of Lake, Illinois,” D. Ct. Dkt. 24-4, at 18, and its agreement
with Aribex required that any litigation be prosecuted “in the state or
federal courts of Utah in Salt Lake County or Utah County.” (Although the Aribex contract does not appear in the record, its contents
are undisputed and respondent will immediately lodge a copy with the
Clerk’s Office if the Court would find that useful.)
11

24
C. The Decision Below Was Correct
1. Review is also unwarranted because the decision below was correct. Unlike an agreement to arbitrate the
merits of a dispute, “[c]ourts should not assume that the
parties agreed to arbitrate arbitrability unless there is
‘clea[r] and unmistakabl[e]’ evidence that they did so.”
First Options, 514 U.S. at 944 (quoting AT&T Techs., Inc.
v. Commc’ns Workers, 475 U.S. 643, 649 (1986)). “The
question whether parties have submitted a particular dispute to arbitration, i.e., the question of arbitrability, is an
issue for judicial determination unless the parties clearly
and unmistakably provide otherwise.” Howsam v. Dean
Witter Reynolds, Inc., 537 U.S. 79, 83 (2002). There is a
“strong pro-court presumption as to the parties’ likely intent.” Id. at 86. A party seeking to compel arbitration can
overcome that presumption only with “clear[] and unmistakabl[e]” evidence. AT&T Techs., 475 U.S. at 649. Requiring the proponent of arbitration to identify such evidence is important, because the issue of who should decide
arbitrability is “rather arcane,” and failure to meet that
standard “might too often force unwilling parties to arbitrate a matter they reasonably would have thought a
judge, not an arbitrator, would decide.” First Options, 514
U.S. at 945.
Petitioner has not carried that burden here.
2. The agreement at issue does not expressly delegate
arbitrability. It is far different from other agreements
that this Court has found sufficient to delegate arbitrability. For example, the arbitration agreement in Rent-ACenter stated: “The Arbitrator, and not any federal, state,
or local court or agency, shall have exclusive authority to
resolve any dispute relating to the interpretation, applicability, enforceability or formation of this [Arbitration]
Agreement including, but not limited to any claim that all
or any part of this [Arbitration] Agreement is void.” Rent-

25
A-Center, West, Inc. v. Jackson, 561 U.S. 63, 66 (2010).
This Court determined that such language delegated arbitrability. See id. at 67.
Here, by contrast, the Agreement says nothing about
who decides arbitrability. The Agreement does not state
that the arbitrators will have authority to resolve arbitrability disputes, much less that they will have the exclusive
authority to do so. Instead, petitioner’s argument rests
solely on a provision stating that any arbitration between
the parties will be governed by AAA rules, and AAA rules
give the arbitrators authority to decide their own jurisdiction—“implied delegation.”12 The agreement does not incorporate AAA rules for all purposes, however. In the
same sentence that petitioner says delegates arbitrability,
the agreement carves out “actions seeking injunctive relief and disputes relating to trademarks, trade secrets or
other intellectual property of Pelton & Crane.” C.A. App.
92. The structure and language of the carve-out removes
such disputes not only from arbitration, but also from the
AAA incorporation:
Any dispute arising under or related to this Agreement (except for actions seeking injunctive relief and
disputes relating to trademarks, trade secrets or other
intellectual property of Pelton & Crane) shall be resolved by binding arbitration in accordance with the
arbitration rules of the American Arbitration Association.
Pet. App. 3a (emphasis added).

As explained in respondent’s concurrently filed conditional crosspetition, there is no basis for concluding that incorporation of AAA
Rules alone is sufficient to show a clear and unmistakable delegation.
If the Court grants the petition for a writ of certiorari on petitioner’s
question presented, it should also grant the conditional cross-petition
on that question, as this petition is predicated on that assumption.
12

26
As the Fifth Circuit explained, “[t]he most natural
reading of the arbitration clause at issue here states that
any dispute, except actions seeking injunctive relief, shall
be resolved in arbitration in accordance with the AAA
rules.” Pet. App. 9a. By placing the carve-out and the “delegation language” in the same sentence, the parties applied the carve-out to delegation. Accordingly, “[t]he plain
language incorporates the AAA rules—and therefore delegates arbitrability—for all disputes except those under
the carve-out.” Id. at 9a-10a. “The parties could have unambiguously delegated this question,” the Fifth Circuit
explained, “but they did not, and we are not empowered
to re-write their agreement.” Id. at 10a.
3. If petitioner retains its past position that a carve-out
never has an effect on delegation—i.e., that the answer to
the question presented is always “no”—that position
clearly conflicts with settled arbitration jurisprudence.
Because arbitration is a creature of contract, the parties
can agree to delegate all, none, or only some disputes. The
parties chose only some here. “[P]arties are generally free
to structure their arbitration agreements as they see fit.
Just as they may limit by contract the issues which they
will arbitrate, so too may they specify by contract the
rules under which that arbitration will be conducted.”
Mastrobuono v. Shearson Lehman Hutton, 514 U.S. 52,
57 (1995) (citations omitted); see also Stolt-Nielsen S.A. v.
AnimalFeeds Int’l Corp., 559 U.S. 662, 683 (2010) (explaining that parties may agree to limit the issues they arbitrate, rules under which any arbitration will proceed,
who will resolve specific disputes, and with whom they will
arbitrate). And so too can they limit the arbitrability disputes they want to delegate.
Adopting a rule that carve-outs have no bearing on
delegation would disrespect the parties’ intent and limit
parties’ ability to structure their arbitration agreements

27
as they wish. If a court cannot consider a carve-out in assessing whether there is clear and unmistakable evidence
of delegation, parties could delegate only all or none of
their arbitrability disputes, no matter how clear the carveout might be.
For example, suppose the arbitration agreement at issue read: “Archer and Pelton & Crane agree to arbitrate
all disputes between them relating to or arising out of this
agreement according to the AAA rules and expressly delegate to the arbitrator the decision whether any claim is
arbitrable, provided, however, that the court shall have
exclusive jurisdiction to decide whether an antitrust claim
brought by either party against a non-signatory is arbitrable.” Without question, this language is the polar opposite of a clear and unmistakable delegation to the arbitrator and indisputably carves-out for the court’s consideration the very claim respondent asserts here: an antitrust
claim against a non-signatory (petitioner). Yet, under petitioner’s all-or-nothing approach, the court would be required to ignore the carve-out language and ship this dispute to the arbitrator to determine whether respondent’s
antitrust claim against the non-signatory (petitioner) belongs in arbitration.13
In short, petitioner’s proposed bright-line rule is inconsistent with this Court’s instruction that “parties are

Petitioner’s worry that the Fifth Circuit’s “reasoning renders
even the clearest and most unmistakable delegation ineffective,” Pet.
20, and attendant parade of horribles is misplaced. First, petitioner’s
argument ignores that it would render the “clearest and most unmistakable” carve-out from delegation ineffective. Second, parties could
avoid disputes over delegation by, for example, including an express
delegation clause with no carve-outs in that clause, such as the delegation provision in Rent-A-Center. The parties chose not to do so
here.
13

28
generally free to structure their arbitration agreements
as they see fit.” Mastrobuono, 514 U.S. at 57.
4. Acknowledging respondent’s argument, petitioner
recently admitted, however, that “[t]o be sure, an arbitration agreement could, in theory,” delegate only some arbitrability disputes. Pet. 21. So petitioner now proposes a
novel presumption-shifting scheme. Petitioner’s proposed
new rule as first unveiled in its stay reply would replace
this Court’s “clear and unmistakable” test in which the
court is presumed to decide arbitrability with a new test
created out of whole cloth in which the arbitrator is presumed to decide arbitrability if the arbitration clause contains a carve-out for certain claims. According to petitioner’s presumption-shifting rule, “once there is clear
and unmistakable evidence of an intent to delegate questions of arbitrability to an arbitrator, courts should return
to the general presumption in favor of arbitrability, and
should compel arbitration of all issues of arbitrability except for those clearly reserved by the parties for a determination by the court.” Stay Reply 11. In other words, if
there is either an express or implied delegation of arbitrability of “some” issue, then according to petitioner, the
court should indulge in the “usual presumption” that the
carve-out from delegation is to be decided by the arbitrator. Pet. 21.
Petitioner has been forced to retreat to a convoluted
structure where who decides arbitrability is answered
with a multi-part test that requires both a court and sometimes an arbitrator to consider the same arbitration
clause. There is nothing “usual” about such a presumption
in this context. That rule would upend an unbroken line of
decisions from this Court that the “usual presumption” is
the court, not the arbitrator, decides whether claims
should proceed in arbitration or in court. First Options,

29
514 U.S. at 944; AT&T Techs., 475 U.S. at 649; Howsam,
537 U.S. at 83, 86.14
Additionally, the proposal is inconsistent with this
Court’s decisions requiring courts to interpret arbitration
agreements as they would any other contract. By sequencing the test—requiring the court to first look for
delegation, and only later look for carve-outs using a different standard—petitioner improperly asks the court to
interpret the contract myopically. Contracts must be “interpreted in context and construed in a manner that gives
proper meaning and effect” to all of the contract’s terms.
Certain Underwriters at Lloyd’s London v. Hogan, 556
S.E.2d 662, 666 (N.C. Ct. App. 2001); see also Johnston
Cty v. R.N. Rouse & Co., 414 S.E.2d 30, 34 (N.C. 1992)
(explaining that courts must construe a contract “in a
manner that gives effect to all of its provisions”); Root v.
Allstate Ins. Co., 158 S.E.2d 829, 833 (N.C. 1968) (interpreting lease only after “examination of the entire written
lease”).
If sequencing is proper at all, petitioner does not explain why delegation should come first, especially where
delegation is only implied. Where, as here, the parties explicitly excluded a particular dispute, that express language is better evidence of their intent than an implication
drawn from choosing a set of arbitration rules. See WoodHopkins Contracting Co. v. N.C. State Ports Auth., 202
In Henry Schein, this Court rejected any argument that the
court must always resolve questions of arbitrability by stating “that
ship has sailed.” 139 S. Ct. at 530. But in the immediately following
sentence the Court, citing First Options, reaffirmed that “[t]his
Court has consistently held that parties may delegate threshold arbitrability questions to the arbitrator, so long as the parties’ agreement
does so by ‘clear and unmistakable’ evidence.” Ibid. Thus, the ship
has also sailed on any attempt to overturn or water down this Court’s
longstanding “clear and unmistakable” test.
14

30
S.E.2d 473, 476 (N.C. 1974) (“[W]hen general terms and
specific statements are included in the same contract and
there is a conflict, the general terms should give way to
the specifics.”). The parties’ decision to expressly exclude
certain disputes trumps any sub silentio delegation by implication.
5. Finally, even if the Court were to abandon its wellestablished “clear and unmistakable” test and replace it
with petitioner’s “presumption-shifting” test, that new
test would be satisfied here. The same language that
carves “actions for injunctive relief” out from arbitration
also carves those actions out from delegation.15 The carveout is not limited to “claims” for injunctive relief, or actions seeking “only” injunctive relief. See Pet. App. 14a.
Thus, even if one presumes the arbitrator decides the
gateway issue of arbitrability unless the parties “clearly
reserved” the arbitrability question for the court, here the
parties did indeed clearly reserve the arbitrability question for the court. Petitioner may not like the contract’s
Petitioner criticizes this structure, claiming no party would ever
intend to carve out the same claims from delegation as arbitrability.
Pet. 21. To the contrary, doing so minimizes “bifurcation” cost—the
cost of having the dispute split between two fora. Parties often prefer
to seek injunctive relief in court. Christopher R. Drahozal & Erin
O’Hara O’Connor, Unbundling Procedure: Carve-Outs from Arbitration Clauses, 66 Fla. L. Rev. 1945, 1958, 1967 (2014). They can minimize bifurcation costs by allowing the courts to decide both the merits
of the dispute and injunctive relief. Ibid. But agreeing to delegate arbitrability of all disputes would force a needless detour to arbitration
first for an arbitrability ruling. The parties can avoid that cost by
agreeing to a carve-out from both the merits and delegation that encompasses the entire action, such as “actions seeking injunctive relief.” Id. at 1998 (“[P]arties seemed to opt for court resolution of some
claims in part to avoid having to shuffle back and forth between courts
and arbitration when the claim is best enforced with injunctive relief.”). In this way, the parties can keep their entire dispute in the
courts, without redoing the same work twice in different tribunals.
15

31
language, but that will sometimes happen when parties
are strangers to an agreement. Nevertheless, arbitration
remains a matter of contract, and courts are not permitted
“to rewrite” an “unambiguous” arbitration clause. Id. at
15a.
CONCLUSION

The petition for a writ of certiorari should be denied.
Respectfully submitted.
DANIEL L. GEYSER
GEYSER P.C.
One Energy Square
4925 Greenville Ave., Ste. 200
Dallas, TX 75206

MARCH 2020

LEWIS T. LECLAIR
Counsel of Record
GARY CRUCIANI
CHELSEA A. PRIEST
MCKOOL SMITH, P.C.
300 Crescent Court, Suite 1500
Dallas, TX 75201
(214) 978-4984
lleclair@mckoolsmith.com

